<html>
<title> - NAVAJO-HOPI LAND SETTLEMENT</title>
<body><pre>[Senate Hearing 109-183]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-183
 
                      NAVAJO-HOPI LAND SETTLEMENT

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1003

             NAVAJO-HOPI LAND SETTLEMENT AMENDMENTS OF 2005

                               __________

                             JULY 21, 2005
                             WASHINGTON, DC

                    U.S. GOVERNMENT PRINTING OFFICE
22-642                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

                     JOHN McCAIN, Arizona, Chairman

              BYRON L. DORGAN, North Dakota, Vice Chairman

PETE V. DOMENICI, New Mexico         DANIEL K. INOUYE, Hawaii
CRAIG THOMAS, Wyoming                KENT CONRAD, North Dakota
GORDON SMITH, Oregon                 DANIEL K. AKAKA, Hawaii
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
MICHAEL D. CRAPO, Idaho              MARIA CANTWELL, Washington
RICHARD BURR, North Carolina
TOM COBURN, M.D., Oklahoma

                 Jeanne Bumpus, Majority Staff Director

                Sara G. Garland, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
S. 1003, text of.................................................     3
Statements:
    Bavasi, Christopher J., executive director, Office of Navajo 
      and Hopi Indian Relocation.................................    58
    Bitsue, Roman, executive director, Navajo-Hopi Land 
      Commission Office..........................................    66
    Denetsosie, Louis, attorney general, Navajo Nation...........    69
    Inouye, Hon. Daniel K., U.S. Senator from Hawaii.............    57
    McCain, Hon. John, U.S. Senator from Arizona, chairman, 
      Committee on Indian Affairs................................     1
    Ragsdale, William P., director, BIA, Department of the 
      Interior...................................................    57
    Shirley, Jr., Joe, president, Navajo Nation..................    63
    Taylor, Jr., Wayne, tribal chairman, Hopi Tribe..............    70
    Tessler, Paul, legal counsel, Office of Navajo and Hopi 
      Indian Relocation..........................................    58

                                Appendix

Prepared statements:
    Bavasi, Christopher J........................................    77
    Bitsue, Roman (with attachment)..............................    82
    Denetsosie, Louis............................................   149
    Ragsdale, William P..........................................    78
    Shirley, Jr., Joe............................................    79
    Taylor, Jr., Wayne (with attachment).........................   157


                      NAVAJO-HOPI LAND SETTLEMENT

                        THURSDAY, JULY 21, 2005

                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
485, Senate Russell Building, Hon. John McCain (chairman of the 
committee) presiding.
    Present: Senators McCain, Dorgan, and Inouye.

   STATEMENT OF HON. JOHN McCAIN, U.S. SENATOR FROM ARIZONA, 
             CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. Good morning.
    I want to thank Senator Inouye for stopping by this morning 
because he is one of those who has been involved in this issue 
for many years, as I have. Senator Inouye, for the record, one 
of my earliest memories was in 1983 when I was a member of the 
House, now 22 years ago, traveling to Navajo and Hopi lands and 
having a long series of meetings with Congressman Udall, then 
chairman of the Interior Committee, to try to get the issue of 
Navajo-Hopi land disputes settled, one of the few times in Mo 
Udall's career he was not successful.
    Then I know when I came to the Senate in 1987, this issue 
again was before the committee, the issue of the Bennett 
freeze, how many families needed to be located, how soon would 
we be able to terminate this. And now we have spent since 1974 
now 31 years we have spent $483 million and witnesses will come 
before this committee today and say we are still not finished.
    It is going to be over. It is going to be over. It is going 
to be over. It is time it ended. It is time that we brought to 
a conclusion this tragedy that has afflicted human beings on 
the Navajo and Hopi Reservations for too long.
    I guess, and I would be interested in hearing my colleague 
from Hawaii's comments, maybe the lesson is you should not try 
to settle land disputes through legislation. That may be one of 
the lessons we have learned here since 1974.
    I do not diminish in any way the human tragedy that has 
been associated with this issue. Witnesses today are as well 
aware of that as I am. I am also aware that is a limited amount 
of American taxpayer's dollars that could be devoted to worthy 
causes on both the Navajo and Hopi Reservations: Educational 
facilities, health care facilities, housing, and many others.
    I want to emphasize, we have to bring closure to this. On 
many occasions in the past, all through the 1980's and 1990's, 
I was told just a few more years, just a few more years, just a 
few more years. The year is now 2005, $483 million spent in the 
meantime. It is time to bring closure.
    I want to clarify that the bill is not intended to alter 
prior court decisions on land claims or to impact on ongoing 
negotiations between the Navajo and Hopi Tribes. I commend you 
for the progress that is being made. I also understand there is 
a strong desire to address the deplorable conditions on the 
Bennett Freeze. I, too, want to address this in separate 
legislation.
    When enacted in 1974, the Navajo and Hopi relocation 
process was intended as a temporary means to relocate families 
who were living on the disputed land on December 22, 1974, 31 
years ago. The act originally intended that relocation 
activities would be completed by 1986, and that the total cost 
would be $40 million. Since its inception, the relocation 
process has been plagued with controversy and delay and the 
Congress has had to amend the act several times to expand the 
relocation activity and provide additional appropriations.
    I recognize the deep emotional toll that relocation has 
taken on the Navajo and Hopi Tribes and to the individual 
relocatees. But after 31 years of identifying and relocating 
eligible applicants and appropriations of one-half billion 
dollars, it is time to bring the relocation program to a close.
    This bill intends that by September 2008, the relocation 
office will transfer remaining responsibilities and necessary 
personnel and funding to the Department of the Interior.
    Thereafter the Federal Government will no longer be 
obligated to provide replacement homes for eligible relocatees. 
The funds to provide these homes will be placed in trust with 
Interior for dissemination to eligible relocatees or their 
heirs. All other necessary relocation activity will be 
administered by the department until these activities are 
complete.
    In 1996, I introduced a bill that would have phased out the 
relocation program by September 2001. At a hearing on that 
bill, many witnesses stated that this was a reasonable timeline 
to complete the activity, but opposition remained due to the 
pending approval of the accommodation lease agreements by the 
Department of the Interior. That activity is now complete and 
an additional 9 years have passed in which additional 
relocation activity has occurred.
    I commend the relocation office for its ongoing efforts to 
implement this complex program. I understand that you have 
reviewed over 4,600 applications, considered numerous appeals 
and provided relocation homes for over 3,600 families. You have 
also provided funding to both tribes to address the impacts of 
relocation.
    I welcome you all to the hearing and I look forward to your 
testimony on this important matter.
    [Text of S. 1003 follows:]
      
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Chairman. Senator Inouye.

 STATEMENT OF HON. DANIEL K. INOUYE, U.S. SENATOR FROM HAWAII, 
                  COMMITTEE ON INDIAN AFFAIRS

    Senator Inouye. Thank you very much.
    As you have pointed out, Mr. Chairman, this problem has 
been with us for over 125 years. It is one based on culture and 
history and much blood has been shed. But as you pointed out, 
Mr. Chairman, the time has come. Yes, the time has come.
    When we first handled this, it was $40 million. Now, it is 
nearly one-half billion dollars and it could get higher.
    But the spirit of cooperation is here, and I am certain 
that the leaders of both the Hopi and Navajo have learned that 
by cooperating one can achieve a lot. I hope that spirit will 
prevail. Some day soon, Mr. Chairman, I hope you and I can go 
there to celebrate this great event.
    The Chairman. Thank you very much, Senator Inouye. I want 
to thank you for your continued involvement and commitment on 
this issue for many, many years.
    I again want to commend Chris Bavasi, the executive 
director of the Office of Navajo and Hopi Indian Relocation, 
and William Ragsdale, but particularly you, Chris, for the 
outstanding job that you have performed over many years and 
exceedingly difficult ones.
    Our first panel today is Christopher J. Bavasi, executive 
director of the Office of Navajo and Hopi Indian Relocation.
    He is accompanied by Paul Tessler. Mr. Tessler, would you 
like to come to the table? Paul Tessler is legal counsel of the 
Office of Navajo and Hopi Indian Relocation in Flagstaff, AZ. 
And William P. Ragsdale, who is the director of the Bureau of 
Indian Affairs, U.S. Department of the Interior.
    I think it would be appropriate to begin with you, Mr. 
Ragsdale.

 STATEMENT OF WILLIAM P. RAGSDALE, DIRECTOR, BUREAU OF INDIAN 
            AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Ragsdale. Thank you, Mr. Chairman.
    First of all, I want to say that I appreciate the 
opportunity to appear here before the committee. I appreciate 
the committee's concern. I want to pledge that we will work 
with this committee, the Navajo-Hopi Relocation Commission, the 
Navajo and Hopi Tribes, to transition the activities required 
by the act and the proposed amendments.
    Mr. Chairman, if it is all right with you, I would like to 
just summarize my views and then answer any questions the 
committee may have. I would request that my written testimony 
be included in the record.
    The Chairman. Without objection, all the written testimony 
will be made part of the record by all witnesses.
    Mr. Ragsdale. Again, thank you, Mr. Chairman, and thank 
you, Senator Inouye, for being here. I have appeared before 
this committee before in my younger years, both as a tribal 
official and as a BIA official. It is good to see you again.
    Yesterday, I met with the Navajo-Hopi Relocation 
Commission. I think we had a very productive meeting. We talked 
about transitioning the activities of the Commission, 
particularly the land management responsibility that the Bureau 
of Indian Affairs traditionally has on Indian lands throughout 
the country. I think that we will be working closely together 
to make that transition by the time, if not before, the term of 
the Relocation Commission expires.
    We have concerns addressed in my formal testimony about any 
remaining duties that would be required to relocate individual 
Indians and families, and the determinations of their 
eligibility, if that is not completed by the term of the 
Commission. However, the Commission has told me that they 
expect those activities to be closed and completed before their 
term expires.
    In addition to that, we would like to work with the 
committee and the Commission to carry out the transition plans. 
The only other concern that we would have is the personnel 
provisions that I think if we can work out with the committee 
that have been brought to our attention.
    With that, I will end my testimony, Mr. Chairman, and I 
will be glad to answer your questions. Thank you.
    [Prepared statement of Mr. Ragsdale appears in appendix.]
    The Chairman. As part of your opening statement, do you 
believe that this legislation is now necessary?
    Mr. Ragsdale. If it is necessary to complete the work of 
the Commission in finality, yes sir, I do.
    The Chairman. Thank you very much.
    Mr. Bavasi, again I want to thank you for the outstanding 
work you and the Commission have performed over a many year 
period. Please proceed.

  STATEMENT OF CHRISTOPHER J. BAVASI, EXECUTIVE DIRECTOR, THE 
  OFFICE OF NAVAJO AND HOPI INDIAN RELOCATION; ACCOMPANIED BY 
  PAUL TESSLER, LEGAL COUNSEL, THE OFFICE OF NAVAJO AND HOPI 
                       INDIAN RELOCATION

    Mr. Bavasi. Thank you, Senator.
    I do have a written statement that I will submit for the 
record. I just want to give you the first couple of paragraphs 
here. Actually, in early June of this year, I and my staff met 
with the members of the committee's staff in Flagstaff, AZ for 
the purpose of giving comments on the original draft of S. 
1003. The Office is in agreement with the legislation's 
projected date for completion of relocation and transfer of any 
remaining functions to a newly created Office of Relocation 
within the Department of the Interior.
    I just want to make it clear that we believe that we can 
finish the relocation project and be prepared to turn over the 
land management program to BIA in the time frame that you have 
submitted in your pending legislation.
    With that, I will submit the rest for the record.
    [Prepared statement of Mr. Bavasi appears in appendix.]
    The Chairman. Maybe for the record it might be helpful, Mr. 
Bavasi, to describe to the committee for the record, if I went 
to the Phoenix Rotary Club today and said, you know, we passed 
a law in 1974 that was supposed to cost $40 million and take 
maybe 10 to 12 years, and it has ended up costing one-half of a 
billion dollars and has gone on for 31 years. How would you 
describe this saga?
    First of all, there is a lesson that Congress probably 
should not pass laws dictating relocation. Is that the first 
lesson?
    Mr. Bavasi. Probably, but I would do it carefully. I would 
not want to blame this on anyone. I would merely point out 
that, well, let me back up. I think the record would show that 
when this was originally contemplated that the notion was that 
there would be maybe 1,000 or 1,100 families that needed to be 
moved. The deadline of 1985 then 1986 came about because the 
law required the Office to submit a plan, have plan approved, 
and then 5 years later the project was supposed to be done. 
That was 1985. And then because of some legal issues, it became 
1986.
    So July 7, 1986, this project was supposed to be done and 
originally it had been contemplated there would be 1,100 
families, 1,000 or 1,100 families to be moved. Interestingly 
enough, in 1986 1,100 families had been moved. However, because 
for a whole variety of reasons, ultimately 3,600 families had 
been certified, or ultimately had been certified. So that is 
certainly one reason that it has taken this long.
    Another reason I think is that this has been purported to 
be something less than a voluntary program. But in fact, it has 
always been operated as a voluntary program. So some folks did 
not see the urgency to move through the program perhaps as 
quickly as they would otherwise.
    The Chairman. So no one has ever been forced off of their 
land?
    Mr. Bavasi. No, sir; it has never happened. I will visit 
with you later, if I am able to, about how we think we can come 
to a conclusion so no one will ever be forced off their land.
    So I think those two issues would be one reason we are 
where we are today.
    The Chairman. How would you account for gross 
miscalculation of costs from a $40 million original cost to a 
one-half-billion dollars actual cost?
    Mr. Bavasi. I am not sure I can because I do not know what 
the theory was or the thought process was 30 years ago that it 
would cost $40 million. We believe, and I think we can show 
that we have been fairly frugal in terms of the expenditure of 
money, we are able to even today, in today's housing market, we 
are able to build a home for slightly over $100,000 in 2004. It 
will be slightly higher this coming year.
    The Chairman. I think Mr. Tessler might testify that there 
has been huge, huge amount of legal costs associated with this 
issue. Is that right, Mr. Tessler?
    Mr. Tessler. That is correct.
    The Chairman. Could you estimate out of this one-half 
billion dollars how much has just been expended in continuous 
court battles? I think there have been continuous court battles 
from the day that this bill was passed.
    Mr. Tessler. Yes; there have. I know we provided the figure 
to your staff. I do not have it in front of me, but all through 
this process, the relocatees, if they have been denied 
eligibility for benefits, have been entitled to administrative 
hearings, and the Navajo Nation has provided a legal services 
program to represent them all through that process, which 
involved not only the administrative stage, but also appeals to 
the U.S. District Court, which generated much expense.
    The Chairman. In all due respect to our friends in the 
legal profession, this has been quite a windfall for them.
    Mr. Tessler. Yes; it has.
    Mr. Bavasi. We can get you that number for the record, 
Senator.
    The Chairman. Would you please for the record give us an 
estimate of the legal costs associated with this? I think it 
has really been horrendous. Again, maybe with the benefit of 
31-year hindsight, maybe we should have never passed the law to 
start with.
    Mr. Bavasi, using your expertise, what do you think we 
ought to do about the Bennett Freeze situation, which we all 
know has turned into, with all good intentions, into a 
deplorable economic disaster area.
    Mr. Bavasi. Senator, I do not think there is any easy 
answer to it. As you suggest, it is a deplorable, awful 
situation.
    I think if we all work together, the Navajos, the Hopis and 
Congress, the Federal Government, we can come to some 
conclusion on how that area can be rehabilitated.
    The Chairman. Which I think Congress, by the way, would be 
more than willing to provide funds for, but first we have to 
have a resolution. What if we passed a law tomorrow that said 
Bennett Freeze is lifted? What would happen then?
    Mr. Bavasi. Number one, I do not think that would be wise. 
I think that we should all work together to come to some 
meeting of the minds.
    The Chairman. Wouldn't be wise because what would happen?
    Mr. Bavasi. Chaos might be an appropriate term. I do not 
have any idea what would happen, but I do not think it would be 
good because everyone would be scrambling to get the upper 
hand, and I do not think that is the proper way to handle it.
    The Chairman. But negotiations between the tribes for 31 
years have not succeeded.
    Mr. Bavasi. I am not sure we have tried that hard. I am not 
sure we have tried that hard on the Bennett Freeze issue. I 
could be completely wrong. I am not involved in that, but I 
suspect that we can come to some conclusions, frankly, using 
the relocation as a benchmark of perhaps what not to do going 
in.
    The Chairman. Senator Inouye.
    Senator Inouye. As I have indicated earlier, I am very 
optimistic because I recall the first meeting that this 
committee held during which time the chairman of the Hopi and 
the chairman of the Navajo sat at the same table, and that had 
never happened before. Today, I note that for over 3 years, I 
believe, negotiators and the leaders of both tribes have been 
looking into the access to sacred sites in each other's camps. 
Now, if we can go that far, I am certain all of these matters 
can be resolved.
    I share the chairman's optimism and his directness that 
this be resolved. I am with him.
    Mr. Bavasi. Senator, may I add that I hope I did not leave 
the wrong impression. There is no relocation on the Bennett 
Freeze.
    The Chairman. Yes; but the Bennett Freeze continues to be a 
source of major friction between tribes, and the deplorable 
economic conditions that exist are just, you know, it is an 
outrage that any citizen of the United States should live in 
the conditions that exist on the Bennett Freeze. That was 
created by the Federal Government. Is that an inaccurate 
statement?
    Mr. Bavasi. No; it is not.
    The Chairman. Mr. Ragsdale, do you have any comment on 
that?
    Mr. Ragsdale. No, sir. I think it would have to be 
addressed in separate legislation.
    The Chairman. Mr. Tessler.
    Mr. Tessler. No, sir.
    The Chairman. You guys are surprisingly reticent.
    Mr. Bavasi. We are not a party to that suit, nor have we 
been.
    The Chairman. No; but you are very familiar with the impact 
that the Bennett Freeze has had on this whole issue.
    Mr. Bavasi. That part of the reservation has fallen behind 
even the former joint use area that we are dealing with now in 
terms of development and lack of infrastructure. I do believe 
it is very close to resolution. I believe the tribes are 
considering the compacts which may resolve it anytime now.
    The Chairman. Good.
    Mr. Ragsdale. Mr. Chairman, the freeze was put in place in 
1964 and 1965, about the time I graduated from high school.
    When I learned the other day when I was being briefed on 
the matter that the freeze was essentially still the status 
quo, I was somewhat surprised.
    The Chairman. As I remember history, it was put in as a 
temporary measure that would be an incentive to not have one 
tribe take advantage over the other while the dispute was going 
to be resolved within a short period of time, and here we are 
50 years later, whatever 40-some years later.
    Again, I go back, Senator Inouye. I think that Congress 
ought to be more careful about, and Administrations ought to be 
more careful, as we all know, it was an Executive order, the 
Bennett Freeze, as to how we interfere in these disputes 
because sometimes the laws of unintended consequences prevail 
in an incredible fashion.
    One other issue I had for you, Mr. Bavasi, construction and 
maintenance problems with relocation housing. How severe are 
they?
    Mr. Bavasi. Construction and maintenance problems?
    The Chairman. Yes.
    Mr. Bavasi. Construction problems are minimal. We have 
either purchased or constructed over 3,400 houses. We have a 
program on the new lands, that is an area in Sanders, about 
350,000 acres, there are almost 400 homes there, 397 homes.
    We have a very small portion that originally were started 
by BIA a number of years ago. One of the previous, it was not 
called ``director'' then.
    Mr. Ragsdale. Assistant Secretary.
    Mr. Bavasi. Assistant Secretary then had about $25 million 
to build houses, and decided that BIA wanted to do it 
themselves. There were some earth problems. The houses that 
were begun to be built there, 12 or 13, and then the program 
came back to us. We finished the houses. To make a long story 
short, there are 36 houses there. About 12 of them have had 
some foundation problems. We are now going in and evaluating 
all of that, and we will fix whatever needs to be fixed.
    The point I am making is that besides those, there are very 
few houses, not none, but very few houses over the course of 
these years that have needed to be fixed because of latent 
defects in the construction.
    Maintenance is an entirely different story. We expect our 
clients to take care of the houses, as anybody else would. So 
we frequently get complaints about shingles off the roof, 
broken windows, those kinds of things.
    The Chairman. Mr. Ragsdale, finally, the reason why the 
Office of Navajo and Hopi Indian Relocation was created 
originally was because of the belief that the Bureau of Indian 
Affairs could not handle it. Now, we are going to I guess turn 
over a few loose ends to you, hopefully a minimum. But I hope 
that you will give this issue the attention it deserves as we 
complete this, in my view, unhappy chapter in many ways in 
American governmental relations with Native Americans.
    So I hope that I can get a commitment from you that you 
will place this as a very high priority whatever 
responsibilities may remain, including actively involved in how 
we can get the Bennett Freeze lifted and be equitable to all 
parties.
    Mr. Ragsdale. I will place that, Senator.
    The Chairman. Thank you very much.
    Again, Mr. Bavasi, I know you have been involved in this 
issue for a very long time. I have heard nothing but praise 
from Navajo and Hopi alike. You have been involved in some very 
incredibly traumatic issues for some families who have had to 
move off of land that they occupied for centuries thank you for 
the job that you and the Commission have done.
    Mr. Bavasi. Thank you, Senator. That is very kind of you.
    The Chairman. Thanks very much.
    Mr. Ragsdale. Mr. Chairman.
    The Chairman. Yes; go ahead.
    Mr. Ragsdale. I might say, just to express one reservation 
that is included in my formal testimony, that our optimism, and 
I am optimistic that we will be able to effect an orderly 
transition and can work with the Commission, but we do have 
reservations if the activities are not concluded with respect 
to the relocation of individuals. The Bureau of Indian Affairs 
is very reluctant, the Department of the Interior is very 
reluctant to be engaged in the movement and responsible for the 
relocation of individuals from these lands, which was one of 
the purposes of this act initially to put somebody neutral in 
charge of that activity.
    The Chairman. I understand that. Again, it has been 31 
years. People have grown old.
    I thank you.
    Our next panel is Wayne Taylor, who is the tribal chairman 
of the Hopi Tribe; Joe Shirley, who is the president of the 
Navajo Nation. He is accompanied by Louis Denetsosie, who is 
the attorney general of the Navajo Nation. Our other witness is 
Roman Bitsuie, who is executive director of the Navajo-Hopi 
Land Commission Office in Window Rock, AZ.
    I do not know who is older, between Chairman Taylor and 
President Shirley, but President Shirley looks older, so we 
will begin with you. [Laughter.]
    Welcome to the witnesses.

  STATEMENT OF JOE SHIRLEY, Jr., PRESIDENT, THE NAVAJO NATION

    Mr. Shirley. Thank you, sir. Good morning, Mr. Chairman and 
Senator McCain, and the rest of the members of the committee.
    I thank you for the opportunity to discuss the Navajo-Hopi 
Land Settlement Amendments with the committee this morning.
    My name is Joe Shirley, Jr. I am president of the Navajo 
Nation. The Navajo Nation last appeared before this committee 
regarding the Navajo-Hopi land dispute in 1996. Since then, 
five Congresses and two Administrations have had little 
interest in the Navajo-Hopi land dispute. The Navajo Nation and 
the Hopi Tribe during that same period have made significant 
progress by working in a more collaborative approach with each 
other to resolve aspects of the land dispute. These joints 
efforts between the Navajos and the Hopis appears to be moving 
both tribes to the conclusion of the land dispute.
    Following passage of the Navajo-Hopi Land Dispute 
Settlement Act of 1996 and this committee's consideration in 
the 104th Congress of S. 2111, that bill with a similar intent 
to this bill, there has been no action by this committee 
regarding the land dispute. I welcome this opportunity to 
discuss the current status of these matters with the committee.
    The Navajo Nation understands from the introductory 
comments of Chairman McCain that he is concerned that the 
relocation process has cost far more than originally estimated 
and taken too long to complete. The Navajo Nation vigorously 
opposed the Navajo-Hopi Land Settlement Act of 1974 before its 
passage and actively sought its repeal for years afterwards. 
The Navajo Nation unfortunately failed in these efforts. Had 
the Navajo Nation been successful, the Navajo people would have 
been spared a tremendous harm and the Federal Government would 
have been spared a great expense.
    That said, now that the Navajo people have had to live 
through the nightmare of relocation, we do not think Federal 
budgetary issues alone should be a basis for limiting funds to 
complete the program, and doing so in a way that brings 
humanity to what has otherwise been an inhumane process.
    The chairman is concerned with costs. I ask the committee 
to consider how they would estimate the costs of moving an 
entire town and how they would value the economic and social 
upheaval such a move would impose. This is what happened to the 
12,000 Navajos who lost their land, their livelihood and their 
identity; 12,000 people, which is approximately the population 
of Kingman, AZ. How much would it cost to relocate the entire 
population of Kingman to the Phoenix area? One billion dollars? 
Two billion dollars? How long would it take if the funds were 
appropriated bit by bit over 30 years? What would be the impact 
if the land that these people were expected to relocate to was 
already populated? What would happen if these people suddenly 
had to unlearn their skills as farmers and learn to survive in 
a cash economy? How long would be too long? How much would be 
too much?
    The Chairman. Let me answer to that: One-half billion would 
be too much and 31 years would be too long. That is my response 
to you, Mr. President, and I think most of my citizens, 
including your constituents, would agree with that.
    Mr. Shirley. Since 1996, the Navajo Nation and the Hopi 
Tribe have settled three major pieces of litigation: The Use 
Case that arose from 25 U.S.C. 640(d)-17(a)(2); the Damage Case 
that arose from 25 U.S.C. 640(d)-17(a)(3); and the Tax Case 
that arose from 25 U.S.C. 640(d)(7), and the continued joint 
ownership of minerals between the Navajo Nation and the Hopi 
Tribe.
    The Use and Damage Cases concluded in 1999 when the Navajo 
Nation paid the Hopi Tribe $29.1 million, and the Hopi provided 
the Nation with satisfactions of judgment in both the Use and 
Damage Cases. Nothing remains of these lawsuits.
    Similarly in 2002, the Navajo Nation and the Hopi Tribe 
settled the Tax Case with a significant payment equal to one-
half of the taxes from the Black Mesa Mine through 2007 were 
paid by the Nation to the Hopi Tribe.
    Currently, with some assistance from the Office of Navajo 
and Hopi Indian Relocation, ONHIR, the Hopi Tribe and the 
Navajo Nation are near resolving the final aspects of 
relocation without any Navajo evictions from the Hopi 
partitioned land.
    One of the more significant issues presented by S. 1003 in 
relation to this potential for forced evictions is one of 
timing. Currently, S. 1003 requires ONHIR to certify 
eligibility of all outstanding claims by September 30, 2005.
    I understand that this date will be revised to September 
30, 2008. Such a change should avoid the need for any forced 
relocation of Navajos because the contemplated agreement can be 
implemented.
    Ideally, if more time is needed to complete these efforts, 
with the specter of eviction, that time should be afforded.
    This is especially true for interested parties who are 
working together to complete difficult tasks.
    S. 1003 raises other areas of specific concern including, 
first, rehabilitation efforts should be focused on the Navajo 
partitioned land. The NPL Navajo communities have borne much of 
the cost of the relocation, having absorbed thousands of 
relocatees and their livestock in an area that has long been at 
or over capacity. The NPL's extremely limited infrastructure, 
already overtaxed by the influx of relocatees, was further 
constrained by the construction freeze that was in place from 
1963 until approximately 1979. This infrastructure continues to 
be grossly insufficient to meet the current needs resulting 
from the relocation law.
    Second, the relocation law currently authorizes the 
Commissioner to make grants which significantly assist the 
Commissioner or assist the Navajo Tribe or Hopi Tribe in 
meeting the burdens of the law. S. 1003 would strike this 
provision, but this is the very provision that provides ONHIR 
the flexibility to address the needs of families and 
communities as they arise. Pursuant to this provision, the 
Navajo Nation has proposed various projects such as a community 
center for the Navajo families that have signed accommodation 
agreements with the Hopi Tribe, range and road improvement, 
power line extensions, and some housing improvements for 
heavily impacted NPL host families.
    Third, the Navajo land selections in New Mexico should not 
be prejudiced. Section 107(c) of S. 2003 provides that the 
authority of the Commissioner to select lands in New Mexico 
shall terminated on September 30, 2008. Since the 
Commissioner's authority would terminate on that date, it is 
not clear that this authority would continue in the new Office 
of Relocation at the Department of the Interior.
    The Navajo Nation has not yet completed its new Mexico land 
selections due largely to circumstances beyond its control.
    Completion of some of those selections is the subject of 
legislation introduced in this Congress, specifically S. 692, 
the Bisti/PRLA Dispute Resolution Act. The Navajo Nation is 
concerned that this provision in S. 1003 could impact that 
selection process and potentially prejudice Navajo interests.
    This authority should be carried over into the Department 
of the Interior if the selections are not completed by 
September 30, 2008.
    Fourth, the transfer of ONHIR's responsibilities to the 
Department of the Interior. ONHIR has developed critical and 
hard-won experience in working on and near the Navajo Nation 
and is ideally suited to addressing the rehabilitation of the 
Bennett and Statutory Freeze areas. Based on this institutional 
knowledge, ONHIR should not be eliminated, although it 
certainly can be downsized.
    I strongly believe that all Navajos want to put the land 
dispute with the Hopis behind and move forward. In order for 
the Nation to do that, the final tasks that will complete 
relocation in a just and human fashion must be accomplished.
    One alternative approach that the committee may want to 
consider, rather than S. 1003 as presently crafted, would be to 
evaluate and enumerate all the tasks the ONHIR needs to perform 
to finish its tasks, with input from the Navajo Nation and the 
Hopi Tribe, then set out a reasonable timeframe to accomplish 
those tasks. That timeframe could be used as a period that 
begins after passage of the legislation to complete the tasks 
identified.
    Such an approach may not have worked prior to 1996, but in 
the present collaborative era, the Nation, ONHIR and the Hopi 
Tribe can devise a plan to take these final steps. The Navajo 
Nation wants this dispute behind us, but we do not want to 
leave individuals behind.
    In addition to my comments, the Navajo Nation attorney 
general has prepared comments on certain specific legal issues 
presented by S. 1003. Those matters are also of special concern 
because of their impact on cases currently pending in the 
courts of the impact these provisions may have on individuals 
seeking relocation benefits. Roman Bitsuie, the executive 
director of the Navajo-Hopi Land Commission Office, will 
discuss the efforts of the Office to serve the relocatees in 
the Bennett Freeze area.
    Thank you, Mr. Chairman.
    [Prepared statement of Mr. Shirley appears in appendix.]
    The Chairman. Thank you.
    Before we go with you, Chairman Taylor, we will go with Mr. 
Bitsuie since it follows. Go ahead. Mr. Attorney General, 
please proceed. I mean, Mr. Bitsuie, the executive director, 
please go ahead.

STATEMENT OF ROMAN BITSUIE, EXECUTIVE DIRECTOR, THE NAVAJO-HOPI 
                     LAND COMMISSION OFFICE

    Mr. Bitsuie. Chairman McCain, Ranking Member Dorgan, and 
members of the Senate Committee on Indian Affairs, thank you 
for this opportunity to comment on the Navajo-Hopi Land 
Settlement Amendments of 2005.
    The introduction of S. 1003 provides an important and 
timely opportunity to address the status of the Navajo-Hopi 
land dispute and the Bennett Freeze. It also provides an 
important opportunity to focus attention on the need for 
developing a plan for the orderly and humane completion of the 
relocation law, including implementation of a rehabilitation 
program for affected areas and communities.
    I am from the Hardrock Chapter of the Navajo Nation which 
was divided in half between the Hopi partitioned land and the 
Navajo partitioned lands. I can testify first-hand to the many 
hardships resulting from the relocation law. In 1989, I became 
the executive director of the Navajo-Hopi Land Commission 
Office, the Navajo entity responsible for dealing with all 
Navajo and Hopi land-related matters.
    Every day, Navajo tribal members come into my office to 
tell me of the hardships that they have suffered because of the 
relocation law, including lots of young people whose families 
relocated and now are homeless and landless. The impact of the 
land dispute will be with the Navajo Nation for many 
generations to come. Although we may not agree with everything 
that will be discussed today, I am sure that we can agree that 
relocation has been a fiasco. At a cost of nearly $500 million, 
the Federal Government has destroyed the subsistence lifestyle 
of thousands of Navajos, uprooted whole communities, and left 
the Navajo Nation and the Navajo people to bear much of the 
burden of addressing the extraordinary economic, social and 
psychological consequences of relocation.
    If the Navajo Nation could have its dream bill, it would 
overturn the relocation law and provide for a right of return 
for affected Navajo families. Of course, we know that this is 
not going to happen. Still, our spiritual ties to the land run 
deep and it would be a betrayal of our beliefs if I did not 
again remind the committee of the nature of the sacrifice the 
Navajo families who have left their ancestral lands had to 
make.
    From the beginning, Federal policy in this area has been 
plagued by lack of understanding of the true situation of the 
land. When the 1882 Executive Order Reservation was 
established, it was an arbitrarily drawn rectangle, one degree 
of longitude wide, one degree of latitude high, containing both 
Navajo and Hopi populations. In the early 1970's when the 
relocation law was under consideration, the Federal Government 
grossly underestimated the costs of relocation, again because 
they did not take the time to understand properly the situation 
on the land.
    Now, with the relocation process approaching its end, it is 
critically important to not repeat past mistakes and take 
action without proper understanding of the situation. We urge 
that a study be undertaken to assess the impact of the 
relocation law and to serve as a policy and fact-based tool for 
developing a humane closure plan. The Navajo Nation began 
pushing for a study in the mid-1990's. In the 107th Congress, 
this committee actually considered two pieces of legislation 
that would have provided for such a study. Unfortunately, the 
Hopis opposed the study provision and it was dropped. If either 
of these initiatives had been acted upon, we would be sitting 
here today with quantifiable data about what has transpired and 
what is needed to close out the relocation in a humane manner.
    Well, we do not have the empirical data, but we do have 
loads of anecdotal information that tells us that many 
relocated families have been traumatized and suffer from a much 
higher incidence of alcoholism, poverty, suicide, depression 
and physical illness than the rest of the local population.
    In addition, the burden of caring for these families has 
fallen on the surrounding communities, as well as the Navajo 
Nation. In my written testimony, I describe at length the 
hardships imposed by the relocation law and the related 
construction freeze.
    Further funding of the Navajo Rehabilitation Trust Fund 
should be undertaken to complete its mission of addressing 
impacts from the relocation law. The Nation has viewed the 
trust fund as a resource for addressing unforeseen and 
unintended consequences of the land dispute, not only over the 
short term, but also over the long term. When initially created 
through the 1980 amendments to the act, it was presumed that 
the authorized amount of $60 million would provide a 
significant start when invested to address the impact of the 
relocation law. It would then be supplemented on an ongoing 
basis by the development of Paragon Ranch energy resources. 
However, the Navajo Nation received only $16 million through 
the trust fund. The fund itself has generated about $8 million 
in interest. Thus, the total value of the fund to the Navajo 
Nation has been about $24 million.
    The Navajo Nation has expended approximately $13 million 
since 1999, and it currently has obligated for near-term 
expenditure another $2 million, leaving about $9 million in the 
trust fund, roughly the amount of interest earned on the 
account. Of the $9 million, about $8.3 million has been 
committed for the purchase of land in Arizona, some 13,000 
acres remaining to complete the land selection provision in 
section 640(d)(10)(a)(2) of the current law.
    As you know, when the 1882 land was partitioned, the Navajo 
Nation lost 911,000 acres of land upon which Navajo families 
resided, and only received as compensation 250,000 acres, plus 
the right to purchase up to 150,000 acres. Land is extremely 
important in Navajo culture. The commitment to purchase 
additional land with trust fund moneys falls within the 
statutory requirement of the law which is that the moneys are 
solely for purposes which will contribute to continuing 
rehabilitation and improvement of the economic, educational and 
social condition of families in Navajo communities affected by 
the law's provision.
    The Navajo Nation has considered and is currently 
considering several properties. However, because it is 
critically important that any newly acquired lands truly 
benefit the affected Navajo families, the Navajo Nation is 
exercising due caution. Until the land purchases are made, the 
Navajo Nation is using the interest from the trust fund to pay 
for ongoing projects to mitigate the effects of the relocation.
    We were encouraged that S. 1003 would authorize additional 
appropriations for the trust fund. We now understand that this 
was a mistake. We would ask that the trust fund in fact be 
reauthorized and that it receive full funding, and that the 
obligation of the Navajo Nation to repay the Navajo 
Rehabilitation Trust Fund be lifted. The coal resources at the 
Paragon Ranch were to be the source of funds to repay the 
United States. However, Paragon Ranch has not been developed as 
expected, and no significant development is anticipated in the 
foreseeable future.
    Notably because of the lawsuit authorized by the relocation 
law which created unexpected liabilities of the Navajo Nation, 
the Navajo Nation has already paid the Hopi Tribe approximately 
$40 million to settle several cases. The Navajo Nation is not 
in a position to pay back the trust fund. The greatest cost of 
the relocation program has been housing, the majority of which 
has been completed. The costs that remain relate to items that 
support the relocation process or assist the Navajo Tribe or 
Hopi Tribe in meeting the burden imposed by the relocation law 
and are therefore very important.
    Unfortunately, only a small fraction of the budget of the 
Office of Navajo Indian Relocations has been spent on this 
important component of the relocation process. We believe that 
the United States must finish the job with regard to Navajo-
Hopi land dispute and assure that all those who have been 
adversely affected by the relocation law have a chance at a 
decent life.
    As a matter of comparison, I would like to note that the 
entire cost of the Federal Government over the last 36 years of 
the Navajo-Hopi land dispute is roughly equal to what the 
United States spends in Iraq every 36 hours.
    Another high priority of the Navajo Nation is 
rehabilitating the Bennett Freeze area. I do support the 
statement that has been made by the chairman and Senator Inouye 
regarding that.
    Due to a 39-year Federal construction freeze, the Bennett 
Freeze Navajos are the poorest of the poor. We hope that all 
parts of the Freeze will be lifted in the near future and truly 
rehabilitation of this area can begin. I am happy to learn from 
your staff of your support for addressing this issue. The 
sooner we can develop a specific approach, the better. It would 
make sense to make the Office of Navajo-Hopi Indian Relocation 
to carry out the Bennett Freeze rehabilitation as they have 
hard-won expertise at working in the western Navajo area.
    Of course, there should be no forced relocation of Navajo 
families. About eight Navajo families who continue to live on 
HPL have refused to sign the accommodation agreement. There is 
real hope that arrangement among the parties can be made to 
allow these families to remain on their ancestral land. We 
believe S. 1003 should support this approach, rather than 
reinforce the deeply troubling idea that Navajo families will 
be forcefully removed from land that they have called home for 
generations.
    We urge the Senate Committee on Indian Affairs to schedule 
a hearing on the Navajo Nation in order to facilitate 
participation by the people most affected by the land dispute 
and to provide the opportunity to visit affected areas and 
families in order to deepen the committee's understanding of 
the long-lasting effects of this relocation law.
    Thank you for your consideration of these remarks. I look 
forward to working with the Committee as it considers S. 1003.
    Thank you.
    [Prepared statement of Mr. Bitsuie appears in appendix.]
    The Chairman. Thank you very much.
    Chairman Taylor, welcome.
    Mr. Attorney General, did you have an opening statement?
    Mr. Denetsosie. Yes; I do.
    The Chairman. It better be a short one.

  STATEMENT OF LOUIS DENETSOSIE, ATTORNEY GENERAL, THE NAVAJO 
                             NATION

    Mr. Denetsosie. Thank you, Senator McCain and members of 
the Senate Committee on Indian Affairs.
    I would just like to summarize my testimony.
    The Chairman. Without objection, your full statement will 
be made part of the record.
    Mr. Denetsosie. I will submit the written testimony for the 
record.
    I would just like to address four aspects of the 
legislation. I think that on the existing land claims 
litigation between the two tribes, we would agree with the 
committee, and also I have had a chance to review Chairman 
Taylor's testimony that the legislation should not amend the 
laws with respect to that ongoing litigation, specifically the 
so-called Owelty case. That case is near completion and we just 
need to complete that. Judgments have been entered twice by the 
Court of Appeals and litigation should just continue. We ask 
that section 2 of the bill be deleted.
    With regard to 640(d)(11)(f) and (g), the legislation 
creates two offices. I think that causes a lot of confusion for 
everyone concerned. The Department of the Interior office 
should follow sequentially after the Navajo-Hopi Indian 
Relocation Office is taken out of commission. With regard to 
640(d)(13)(d) and 640(d)(14)(i), we do have a problem with the 
September 30, 2005 date for close of certification. We 
understand that that will be extended to 2008. We would agree 
with that.
    And finally, the legislation creates a new appeals process 
to take the appeals of benefit certifications to the Court of 
Appeals. We believe that is unnecessarily cumbersome and 
probably not the best use of judicial resources. We believe 
that the current procedures should be kept in place to allow 
for appeal to the Federal District Court.
    With that, Senator, I agree with you. A lot of good men 
have tried to resolve this dispute. I think the dispute has 
proven to be bigger than any of them.
    Thank you.
    [Prepared statement of Mr. Denetsosie appears in appendix.]
    The Chairman. Thank you very much, Mr. Attorney General.
    I would like to say that we would like to be in close 
communication with you as we move forward with developing this 
legislation, particularly in the form of amendments. I thank 
you for those recommendations. They sound like they are very 
important and helpful ones. And thank you for being here today.
    Mr. Denetsosie. Yes; and we look forward to working with 
the staff on that during the break.
    The Chairman. Thank you, sir.
    Chairman Taylor, welcome.

STATEMENT OF WAYNE TAYLOR, Jr., TRIBAL CHAIRMAN, THE HOPI TRIBE

    Mr. Taylor. Thank you, Chairman McCain.
    The Hopi Tribe appreciates the opportunity to appear before 
you today to offer testimony on S. 1003. My name is Wayne 
Taylor, Jr. I am the democratically elected chairman of the 
Hopi Tribe of Arizona. The tribe has submitted written 
testimony in reply to specific provisions of S. 1003.
    The Hopi Tribe is grateful for the committee's effort in 
attempting to bring to a close the long struggle by the Hopi 
people to both protect our aboriginal lands from encroachment 
and secure jurisdictional control over those lands. The Hopi 
people have lived on our northeastern Arizona homeland since 
ancient times. Our original reservation of more than 2.6 
million acres established in 1882 by Executive order of then-
President Chester Arthur was only a small portion of our 
aboriginal homeland. Since that time, because of encroachment 
by the Navajo and action and inaction by the United States, we 
have lost over 40 percent of our reservation. We are today 
completely surrounded by the Navajo Nation, which overlaps 
three States. Many of our sacred and archaeological sites are 
no longer on the Hopi lands.
    The Navajo-Hopi Indian Settlement Act of 1974 was intended 
to resolve more than a century of land disputes between the 
Hopi and Navajo Nations. It partitioned disputed lands and 
required Hopi and Navajo to relocate off property that belonged 
to one tribe or the other. Hopi people years ago moved off 
disputed Navajo land. However, more than 30 years after passage 
of the 1974 Act, we are still waiting for the Navajo to move 
off Hopi land.
    S. 1003 should not rewrite existing dispute resolution 
provisions between the Hopi Tribe and the Navajo Nation.
    Section 102 of S. 1003 could undo years of litigation 
between the Hopi and Navajo in the courts of the United States. 
The bill affects the Owelty lawsuit provision of the 1974 Act 
by changing the Owelty decisionmaker from the Federal District 
Court to the Secretary of the Interior.
    The bill also changes how Owelty is calculated. The Owelty 
case was decided at the District Court level by two judgments, 
both of which were appealed to the Ninth Circuit Court of 
Appeals. The case is now on remand to the District Court for 
further proceedings. The Hopi Tribe opposes any changes to the 
Owelty provision of the 1974 Settlement Act.
    S. 1003 is intended to complete the work of relocating 
Navajo off Hopi lands and close off the Navajo-Hopi Indian 
relocation by 2008. We certainly welcome those goals, which 
under the 1996 Settlement Act were supposed to be completed in 
2000.
    However, we are concerned that the deadline will prejudice 
the rights and interests of the Hopi Tribe.
    S. 1003 will be effective only so long as it enables the 
Hopi Tribe to retain complete jurisdiction over all its 
reservation lands are provided in 1974 Act. S. 1003 states that 
relocation duties remaining after 2008 be turned over to the 
Department of the Interior, Bureau of Indian Affairs. The Hopi 
Tribe believes all relocation be completed before the Office is 
closed. We do not believe the BIA, which is already 
overburdened, is equipped to handle relocation. In addition, 
the BIA has trust responsibility to both the Hopi and Navajo 
Nations. Injecting the BIA into the relocation matter may be a 
breach of the Federal trust responsibility that BIA has to both 
tribes.
    The Hopi Tribe fears that provisions of S. 1003 may delay 
final relocation. The bill provides that relocation funds may 
be placed into a trust for heirs of those who refused to 
relocate, rewarding them for continued illegal occupation of 
Hopi lands. While the bill establishes removal eviction 
requirements, it leaves much to the discretion of the U.S. 
Attorney. Evictions should be mandatory and deadlines or 
appeals should not stretch the process beyond 2008.
    Finally, we are concerned that the Office of Relocation 
receives sufficient time and funding necessary to complete its 
work. Certification deadlines for applying for relocation 
benefits must be reasonable and not arbitrary as to encourage 
legal challenges and other delays. Congress must provide the 
Office of Relocation with funding necessary for such 
substantive work as building houses for relocated families.
    My people are faced with many challenges, Senator, some of 
which you have described, high unemployment, inadequate 
housing, lack of economic development on a semi-arid and remote 
homeland, and the erosion of our cultural traditions and our 
way of life. We are faced with a very real thirst for survival. 
Too much of our time and resources have been spent in a 
seemingly endless struggle to preserve and protect what has 
been ours for two millennium, what is most precious to us than 
life itself, our homeland.
    The Hopi people ask that this committee help us in ending 
this tortured chapter in our existence so that we may finally 
move on to the creation of a viable homeland for future 
generations.
    Chairman McCain, let me again thank you and members of this 
esteemed committee for this opportunity to testify before you 
today. I am ready for any questions.
    [Prepared statement of Mr. Taylor appears in appendix.]
    The Chairman. Thank you very much.
    President Shirley and Chairman Taylor, suppose that you had 
dictatorial powers. What would you do about the Bennett Freeze? 
What would be your solution to the Bennett Freeze issue? We 
will begin with you, President Shirley.
    Mr. Shirley. I do not know if I want dictatorial powers, 
Senator
    The Chairman. Some say the president of the Navajo Nation 
has close to it. [Laughter.]
    Seriously, in other words, if you had a magic wand and 
said, okay, this is the way we settle the Bennett Freeze. This 
is important because we are going to try to address that issue.
    Mr. Shirley. I hope there is a time, Senator, when the Hopi 
Nation and the Navajo Nations live together harmoniously. I 
guess I would like to get back to that. I know many of our 
children are inter-married, meaning that Navajo people are 
married to Hopi people, and so we have children who are Hopi 
and Navajo. I think also with the Hopi Nation. I think the two 
nations at this point in time, and working with Chairman Taylor 
and with the Council to try to resolve just that, the Bennett 
Freeze. We have not resolved it. Hopefully, we begin to see the 
harmonious relationship that has gotten away from us and to 
begin to develop our lands the way we should. That is what I 
would like to see.
    The Chairman. You would like to see it lifted?
    Mr. Shirley. Yes; I would like to see it lifted, sir. I 
think that is what we need.
    The Chairman. Chairman Taylor.
    Mr. Taylor. Chairman McCain, the 1934 Land Settlement Act 
is in litigation between the two tribes, as you well know. We 
have been waiting on the District Court to pick this matter 
back up. We have waited for a very long time. It is still on 
the docket.
    The Chairman. Let me ask you this. Suppose we lifted the 
Bennett Freeze tomorrow. What do you think would ensue on the 
Bennett Freeze? Would it be chaos? Would it be people trying to 
move in on other people's land? What do you think would happen?
    Mr. Taylor. Chairman McCain, in fact what I was getting 
ready to say is we have been in the negotiations, and in fact 
have reached agreement and have developed a compact which would 
settle this lawsuit. In fact, the Hopi Tribal Council has 
already ratified this agreement and we are awaiting on the 
Navajo Council to do likewise.
    The Chairman. And roughly the outlines of that agreement 
would be?
    Mr. Taylor. The lands have been largely partitioned. What 
is remaining, Chairman McCain, are in the case of the Hopi, the 
sacred sites, the religious sites that we have remaining on the 
Navajo 1934 areas. We want those areas to be protected and we 
want to have access to all those areas so that we can continue 
to practice our religious duties and responsibilities.
    The Chairman. President Shirley, your version of this 
compact?
    Mr. Shirley. We are very diligently working together, the 
two nations, to come to agreement about the compact, sir. I 
think if we can continue to do that, I think in short order we 
will have that agreement. The Navajo Nation Council has been 
apprised of it. They are looking at it. I think, God willing, 
maybe we will have an agreement.
    The Chairman. Within the year?
    Mr. Shirley. Giving caution, I would like to see it within 
the year.
    Mr. Taylor. Chairman McCain, again the Hopi Tribal Council 
has already approved the compact. We are anxious to see it 
happen this year. That would, in effect, also lift the Bennett 
Freeze.
    The Chairman. Mr. Attorney General, do you have a comment 
on that?
    Mr. Denetsosie. Thank you, Senator. The terms of the 
compact are subject to a confidentiality agreement. 
Unfortunately, we cannot really divulge the details in it. The 
negotiations involve a senior judge of the Ninth Circuit Court 
of Appeals as the mediator. He also signed onto the 
confidentiality agreement, so we are very cautious about that.
    It is impossible to predict when the two tribes will carve 
out the final terms. Like we said, it could be this year or it 
could be next year. That is the best we can say, but we look 
forward to the assistance of the United States, not only the 
Department of the Interior, Fish and Wildlife, and the United 
States Senate in helping us resolve this quite in the near 
future, I hope.
    The Chairman. Well, I do not have to tell any of the 
witnesses that it is a national shame and disgrace the 
conditions that exist in the Bennett Freeze area. It is long 
overdue that addressed it, and I hope that this compact or 
agreement may be consummated as soon as possible so we can let 
those people get on with some kind of development. President 
Shirley, so keep us informed, would you?
    The Paragon Ranch in New Mexico was purchased with the 
intent that the coal reserves would generate revenues that 
would in turn reimburse the Navajo Rehabilitation Trust Fund. 
It is my understanding there is no coal resources that are 
producing.
    What do you intend to do with this land?
    Mr. Shirley. I will go ahead and have our Attorney General 
answer that, sir.
    The Chairman. Sure, whichever you want to.
    Mr. Denetsosie. Honorable Senator, the land has not been 
transferred to us at this point in time because of appeals by 
the existing owners of the preference right lease applications. 
It is not for lack of effort on our part, but there have been 
appeals within the Bureau of Land Management and the appeals 
involve litigation. For those reasons, we still have not 
acquired the resources. When we do get the resources, then we 
can look at the opportunities available for development of the 
coal resources. It is something that is ongoing. There is a 
separate bill, as you are aware, through the Natural Resource 
Committee of the Senate to try and resolve that issue at this 
time.
    The Chairman. Mr. Bitsuie, $16 million was appropriated for 
the Rehabilitation Trust Fund. I understand that after the 
conceptual framework was signed, these funds went into an 
interest-bearing account that accrued an additional $8 million. 
I understand that $11 million of that fund remains.
    The appropriations were made between 1990 and 1995. Why has 
there been a 10-year delay in spending that money?
    Mr. Bitsuie. Mr. Chairman, the Federal Government loaned 
the Navajo Nation $16 million to fund the trust fund. We have 
spent on community housing and other similar projects about $15 
million to $16 million. But the original loan has also 
generated another $8 million in interest, which is roughly the 
unexpended amount remaining in the account. We are using the 
interest from the $8 million to fund further projects. The $8 
million itself has been earmarked by the Navajo Nation for 
critical land purchases. Those land purchases have not been 
completed as the Navajo Nation is being extremely careful in 
seeking to acquire lands that will actually generate revenue 
for addressing the adverse impact of the land dispute for years 
to come.
    We are stretching out and maximizing the value of the trust 
fund. Land is very important in Navajo culture. For years, the 
policy of the Federal Government has been to increase tribal 
self-determination. In our judgment, we have appropriately 
allocated the resources from the trust fund.
    The Chairman. Well, in my view, you haven't. It was 
appropriated 10 and 15 years ago, and it has not been spent.
    I am sure that if that had been the conditions under which 
it was appropriated, the money would not have been 
appropriated.
    Mr. Bitsuie, the Land Commission received $1.5 million in 
1998 from the Trust Fund to build or improve 48 replacement 
homes on the HPL. What is the status of this project? That has 
only been 7 years.
    Mr. Bitsuie. The Navajo Nation allocated $1.5 million from 
the Trust Fund for the construction of 48 homes on Hopi 
partitioned land. Under the accommodation agreement that has 
been entered between the Navajo Nation and the Hopi Tribe, we 
were instructed to use or identify the land or have the land 
withdrawn for the accommodation signers to use the land within 
a certain period of time. So the money was made available.
    The $1.5 million only represents about one-half the cost of 
those homes. In an effort to stretch trust fund dollars, we 
reached an agreement with the Navajo Housing Services that they 
would provide labor. Unfortunately for their own financial 
reasons, the Navajo Housing Services was not able to fulfill 
its contractual commitment. Six homes were not built, but most 
of the other 42 have significant problems.
    The Navajo Nation recently has committed another $800,000 
to fix the homes and complete the projects. When complete, the 
total cost of this project to the trust fund for 48 homes of 
$2.3 million is still a bargain. Today, it would cost about 
$100,000 per home, as was provided by the Relocation 
Commission, Mr. Bavasi. To build these homes, it would cost 
approximately $4.8 million. But we will complete the homes at a 
cost of one-half of that amount, Mr. Chairman.
    The Chairman. So if we waited another 20 years, it would 
probably cost $1 million per home, so we should wait longer. Is 
that the logic that you are giving me, Mr. Bitsuie?
    Mr. Bitsuie. We are on a timeframe that we will complete 
the renovation of these homes by the end of this year, as well 
as the six homes that were not constructed, Mr. Chairman.
    The Chairman. Thank you very much.
    Could I just ask, how often, President Shirley, do you and 
Chairman Taylor communicate with each other?
    Mr. Shirley. We communicate as often as is needed, sir, on 
the different issues relative to the Bennett Freeze or 
whatever.
    The Chairman. So you have good lines of communication?
    Mr. Shirley. Yes; we do.
    The Chairman. Chairman Taylor.
    Mr. Taylor. We do. Mr. Chairman, we do communicate quite 
frequently. This is just one of a number of issues that we are 
dealing with. We are working together to preserve the Mojave 
plant, which is a major part of the economic revenue stream for 
the two nations. That also is another matter that takes 
tremendous amounts of our time. We do work together with our 
teams on those projects.
    The Chairman. I suggest that there are a lot of issues now, 
maybe more than in the past, that exist that are in the mutual 
interests of both tribes. As you mentioned, the Mojave 
powerplant situation, housing, the Bennett Freeze, pending 
compacts between the two tribes. I would suggest that you two 
schedule a regularly scheduled meeting as happens between 
leaders that have issues of mutual interest, so that you can 
have an agenda, meet and see what can be resolved and report 
back to the tribal councils and the Hopi and Navajo people.
    It is my suggestion, given the number of issues that exist 
that are in the mutual interest of both tribes that you 
establish a set of regularly scheduled meetings between the two 
of you, at least in this period while we are addressing major 
issues that affect both tribes. I encourage it. I am not saying 
that you must. I am just saying that it would be helpful to us 
to know the agenda that both tribes are pursuing, the Navajo 
Nation and the Hopi Tribe are pursuing, in order to try to 
achieve some of these goals.
    I think I started this hearing, and maybe I should close it 
by saying that when Congress gets involved in issues such as a 
land dispute, many times the law of unintended consequences is 
going to prevail. I do not think anyone thought that in 1974 
that we would be sitting here 31 years later without some of 
these issues having been resolved. I think that if in 1974 if 
the two tribal leaders had been able to sit down and negotiate 
these issues out that we would be discussing other important 
and compelling issues like education, like health care, like 
housing. There are a number of issues that clearly the Federal 
Government has not fulfilled its responsibilities to either 
tribe. I would like to be able to put these issues behind us so 
that we can concentrate on providing proper health care, 
education and housing to both tribes, which we all know is 
terribly lacking and behind the rest of the Nation.
    Do you have any comment, Chairman Taylor.
    Mr. Taylor. Mr. Senator, I think you are very much on 
point. I could not agree with you more.
    The Chairman. President Shirley.
    Mr. Shirley. A point well taken, sir. I totally agree.
    The Chairman. It all, I think, is going to depend on, a lot 
of this is going to depend on the cooperation between the two 
or you elected leaders. I am pleased to see that this 
relationship has matured in a way that perhaps was not the case 
in previous Administrations in both organizations.
    Mr. Attorney General, it is always a pleasure to see you 
again. Do you have any other comments you would like to make?
    Mr. Denetsosie. I am ready to leave for the Southwest. 
[Laughter.]
    The Chairman. Mr. Bitsuie.
    Mr. Bitsuie. Thank you very much, sir.
    The Chairman. Thank you very much. We will work very 
closely with you as we proceed on this issue. Thank you very 
much.
    This hearing is adjourned.
    [Whereupon at 10:47 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]


=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


Prepared Statement of Christopher J. Bavasi, Executive Director, Office 
                  of Navajo and Hopi Indian Relocation

    Mr. Chairman and members of the committee, good morning. I 
appreciate the opportunity to come before you today to provide 
testimony and answer any questions you may have regarding the Office of 
Navajo and Hopi Indian Relocation and its position on the pending 
legislation.
    In early June of this year, I and my staff met with members of the 
committee staff, in Flagstaff, AZ for the purpose of giving comments on 
the original draft of S. 1003. The Office is in agreement with the 
legislation's projected date for completion of relocation and transfer 
of any remaining functions to a newly created Office of Relocation 
within the Department of the Interior. I understand that the 
Administration opposes the language concerning enhanced retirement 
computation and the Office of Personnel Management will be in touch 
with the committee in regards to these concerns. Committee staff have 
already made some changes to the proposed legislation based on 
recommendations from the Office and we believe the remaining 
recommendations that the Office will put forth below are sufficiently 
important to the efficient and timely completion of our mission and the 
closure of the Office, that they should be implemented.
    For convenience, the comments below are made by reference to page 
and line numbers of the most recent version of S. 1003.
    Page 13, lines 3-7. This change carries forward the Secretary's 
authority to take lands into trust acquired under section 1B, but has 
omitted the authority to take into trust lands described under section 
1A. Land selection has not been completed in either of these categories 
and therefore, the Secretary's authority to take lands into trust 
should extend to both categories. The Office would therefore, recommend 
that page 13, line 5 read, (1)(A) (1)(B).
    Page 19, lines 11-13 and lines 23-25, page 52, lines 22-24 and page 
59, line 25. These three citations all deal with the termination of 
ONHIR authority, the establishment of the Office of Relocation within 
the Department of the Interior and the date of commencement of the 
Secretary's authority over transferred relocation activities. The 
original draft of the legislation included a date of September 30, 2008 
for the termination of ONHIR and the transfer of the functions to the 
Secretary. The original draft of the legislation stated that the 
Secretary's authority commenced with the enactment of the legislation. 
In the most recent version of the proposed legislation that has been 
corrected to indicate that the effective date of the Secretary's 
authority will be September 30, 2008. The only date not in synch with 
these two dates is the date of the establishment of the Office of 
Relocation within DOI which still reads October 1, 2006. The Office 
recommends that the date for the establishment of the Office of 
Relocation within the Department of the Interior be changed to 
September 30, 2008 so that all three dates are consistent.
    Page 22, line 16-19. This section states; ``(d) P Prohibition.--No 
payment for benefits under this act may be made to any head of 
household, if as of September 30, 2005, that head of household has not 
been certified as eligible to receive the payment.'' The Office has 
several comments in regard to this language.
    (a) The prohibition conflicts with page 20, line 10-24 and page 30, 
line 1-2 of S. 1003 which provides that ``a final determination is made 
by ONHIR for each appeal described in paragraph (1) by not later than 
January 1, 2008.
    (b) The prohibition conflicts with page 28, Line 15-23 of S. 1003 
which requires that eligibility determinations be made by ONHIR, 
``before July 1, 2008, but not later than 90 days after receiving a 
notice of the imminent removal of a relocatee. . . .''
    (c) The prohibition conflicts with page 30, line 4-25 which 
requires the Commissioner to provide notice not later than 30 days 
after the enactment of the Navajo Hopi Settlement Act of 2005 to 
individuals who may have a right to a determination of eligibility.
    (d) This prohibition also conflicts with the Office's recently 
arrived at agreement with the Navajo-Hopi Legal Services Program to 
accept certain late applications and certain appeals under very strict 
guidelines to prevent the possibility of litigation on these clients. 
It is anticipated that fewer than 20 heads of household will become 
eligible under this agreement with the Navajo-Hopi Legal Services 
Program. However, more time is required to complete the review of these 
cases and the prohibition as stated above, would not allow the Office 
to fulfill its side of the agreement.
    (e) The Office, therefore, recommends that the date in the above 
citation be changed to September 30, 2008 for all of the reasons stated 
above, as well as for the reason that it makes all of the transition 
and completion dates consistent.
    4. Page 30, lines 4-25. The steps outlined in the referenced 
sections have already been accomplished. The Office recommended this 
language in the 1996 legislation in order to provide an organized 
vehicle for completing notifications and certifications prior to 
termination of the agency. Since the legislation was not enacted, the 
Office implemented these steps under its regulations. To include this 
language might necessitate the Office repeat steps already taken and 
might open the door to further relocations and/or litigation. The 
Office recommends eliminating this entire section.
    5. Pages 47 and 48, section 202. The draft legislation cites an 
outdated section of title 5 (5 U.S.C. 5597) which was DOD's original 
authorization to provide separation incentives without OPM approval. 
DoD has since updated their Voluntary Separation authority under the 
NSPS law, 5 U.S.C. 9902 (see P.L. 108-136, sec. 1101). We can use the 
existing voluntary separation authority under 5 U.S.C. 3523, recently 
updated under the Homeland Security Act (P.L. 107-296, sec. 1313). This 
updated separation authority gives the agency head the option of 
offering $25,000 or less for separations and provides the agency great 
flexibility in determining how, when, and under what conditions these 
incentives will be offered--with OPM approval.
    Mr. Chairman, That concludes my formal statement. I would be happy 
to try to answer any questions the committee has for me and we look 
forward to working with the committee to refine this legislation.
                                 ______
                                 

 Prepared Statement of William P. Ragsdale, Director, Bureau of Indian 
                  Affairs, Department of the Interior

    Mr. Chairman and members of the committee, my name is William P. 
Ragsdale. I am the Director of the Bureau of Indian Affairs (BIA). I am 
pleased to be here today to provide the Department's views on S. 1003, 
a bill to amend the Navajo Hopi Land Settlement Act of 1974. We applaud 
Senator McCain for his efforts to bring this 150 year dispute to a 
close. Although, we cannot support the bill as written, we would like 
to work with the committee to achieve a favorable result.
    On December 16, 1882, President Chester Arthur signed an Executive 
order that set aside approximately 2.5 million acres of land in 
northern Arizona for the Hopi Tribe and ``such other Indians as the 
Secretary may see fit to settle thereon.'' At the time of the 1882 
Executive order, there was a small but indeterminate number of Navajos 
residing on the portions of the reserved lands. Throughout the 1890's 
and to this day, members of the Hopi tribe and the Navajo Nation have 
disputed the right to occupy lands within the 1882 reservation. In 
1962, the Federal District Court ruled that both the Hopi Tribe and the 
Navajo Nation had joint rights to use the 1882 Executive order 
reservation lands. The joint use proved unworkable. In 1974, Congress 
enacted legislation to resolve the joint use rights by partitioning the 
land and relocating members of each tribe from lands adjudicated to the 
other tribe. The 1974 Act provided relocation benefits to tribal 
members residing on lands partitioned to the other tribe, and 
established the Navajo and Hopi Relocation Commission to provide those 
benefits. To date, all Hopi families that were residing on Navajo land 
have been relocated and approximately 90 Navajo families are in some 
stage of the relocation process.
    S. 1003 The Department has several concerns with S. 1003. S. 1003, 
proposes to terminate the Navajo and Hopi Indian Relocation Office 
(Relocation Office) in 2008 and transfer any remaining responsibilities 
of the Relocation Office to the BIA. At this point, as the Relocation 
Office is an independent agency, we are uncertain what responsibilities 
would be transferred or the policies in effect at the Relocation Office 
and therefore, we do not know exactly how this legislation would impact 
the BIA. In addition, in light of not knowing the universe of 
responsibilities that the BIA would be responsible for, we are 
concerned that the BIA does not have the necessary expertise or 
resources to complete the work of the office. We have recently started 
a dialog with the Relocation Office to determine the work the Office 
has accomplished and the manner in which it operates. We expect to 
learn the funding details for these activities from the Relocation 
Office which will assist us in identifying any limitations.
    Furthermore, any transition would take time and could further delay 
any relocation activity. There are currently about 90 families that are 
in some phase of the relocation process. Eight of these families are 
resistant to signing an accommodation agreement, and a number of 
appeals are also in various phases of the appeals process. Any 
agreements will require significant coordination with the Navajo 
Nation. It is difficult to predict how many of these cases will be 
resolved prior to relocating and then ultimately terminating the 
Relocation Office, especially considering the complex history of this 
relocation effort. Although under the Commission's published 
regulations the time for filing applications for relocation assistance 
has expired, applications continue to be filed. Therefore, we suggest 
specific deadlines be included in the bill of when applications for new 
housing and any appeals have to be filed. Without some specific 
timeframe, it will be extremely difficult to assess the BIA's future 
workload.
    The BIA is also concerned with building houses for the relocated 
families. The BIA has a very small program to assist tribes in their 
pursuit of funding for housing repairs or renovations. We would suggest 
including the Department of Housing and Urban Development in any 
discussions pertaining to housing assistance.
    The Administration objects to the proposed language which would 
provide enhanced retirement benefits to Office of Navajo and Hopi 
Relocation employees as this is unfair compared to the benefits 
available to other similarly situated Federal employees. The 
legislation also does not keep the Retirement Trust Fund whole for the 
increased cost of these benefits. In addition to the Administration's 
objection to the retirement provisions, the Administration also has 
concerns with the new separation pay authorized in section 202. S. 1003 
cites an outdated section of title 5 (5 U.S.C. 5597), which was the 
Department of the Defense's (DOD) original authorization to provide 
separation incentives without Office of Personnel Management approval. 
DOD has since updated their Voluntary Separation authority under the 
National Security Personnel System law, 5 U.S.C. 9902 (see P.L. 108-
136, sec. 1101). Instead, existing voluntary separation authority under 
5 U.S.C. 3523, recently updated under the Homeland Security Act (P.L. 
107-296, sec. 1313), should be used. This updated separation authority 
gives the agency head the option of offering $25,000 or less for 
separations and provides the agency flexibility in determining how, 
when, and under what conditions these incentives will be offered--with 
OPM approval.
    Finally, we request that great care be taken to ensure that 
property interests are not impacted by any changes contained in the 
legislation.
    This concludes my prepared statement. I will be happy to answer any 
questions you may have.
                                 ______
                                 

    Prepared Statement of Joe Shirley, Jr., President, Navajo Nation

    Good Morning Chairman McCain and Ranking Member Dorgan. I thank you 
for the opportunity to discuss the Navajo-Hopi Land Settlement 
Amendments with the committee this morning. My name is Joe Shirley, 
Jr., I am the president of the Navajo Nation. The Navajo Nation last 
appeared before this committee regarding the Navajo--Hopi Land Dispute 
in 1996. Since then five Congresses and two Administrations have had 
little interest in the Navajo-Hopi Land Dispute. The Navajo Nation and 
the Hopi Tribe, during that same period, have made significant progress 
by working in a more collaborative approach with each other to resolve 
aspects of the land dispute. These joint efforts between the Navajos 
and Hopis appears to be moving both tribes to the conclusion of the 
land dispute. Following passage of the Navajo-Hopi Land Dispute 
Settlement Act of 1996 and this committee's consideration in the 104th 
Congress of S. 2111, a bill with similar intent to this bill, there has 
been no action by this committee regarding the Land Dispute. I welcome 
this opportunity to discuss the current status of these matters with 
the committee.
    The Navajo Nation understands from the introductory comments of 
Chairman McCain that he is concerned that the relocation process has 
cost far more than originally estimated and taken too long to complete. 
The Navajo Nation vigorously opposed the Navajo-Hopi Land Settlement 
Act of 1974 (``relocation law'') before its passage and actively sought 
its repeal for years afterward. The Navajo Nation unfortunately failed 
in these efforts. Had the Navajo Nation been successful, the Navajo 
people would have been spared a tremendous harm and the Federal 
Government would have been spared a great expense. That said, now that 
the Navajo people have had to live through the nightmare of relocation, 
we do not think Federal budgetary issues alone should be a basis for 
limiting funds to complete the program, and doing so in a way that 
brings humanity to what has otherwise been an inhumane process. The 
chairman is concerned with cost. I ask the committee to consider how 
they would estimate the cost of moving an entire town, and how they 
would value the economic and social upheaval such a move would impose? 
This is what happened to the 12,000 Navajos who lost their land, their 
livelihood, and their identity; 12,000 people; approximately the 
population of Kingman, AZ. How much would it cost to relocate the 
entire population of Kingman, to the Phoenix area? One billion dollars? 
Two billion dollars? How long would it take if the funds were 
appropriated bit-by-bit over 30 years? What would be the impact if the 
land these people were expected to relocate to was already populated? 
What would happen if these people suddenly had to unlearn their skills 
as farmers and learn to survive in a cash economy? How long would be 
too long? How much would be too much?
    By far the greatest cost of the relocation program has been 
housing; the majority of which has been completed. The costs that 
remain relate to items that support the relocation process or ``assist 
the Navajo Tribe or Hopi Tribe in meeting the burdens imposed'' by the 
relocation law (25 U.S.C. 640d-25) and are, therefore, very important.
    Since 1996, the Navajo Nation and the Hopi Tribe have settled three 
major pieces of litigation: The Use Case that arose from 25 U.S.C. 
Sec. 640d--17(a) (2); the Damage Case that arose from 25 U.S.C. 
Sec. 640d--17 (a) (3); and the Tax case that arose from 25 U.S.C. 
Sec. 640-d7 and the continued joint ownership of minerals between the 
Navajo Nation and the Hopi Tribe. The Use and Damage Cases concluded in 
1999 when the Navajo Nation paid the Hopi Tribe $29.1 million, and the 
Hopi provided the Nation with Satisfactions of Judgment in both the Use 
and Damage Cases. Nothing remains of these lawsuits. Similarly, in 
2002, the Navajo Nation and the Hopi Tribe settled the Tax Case with a 
significant payment, equal to one-half of the taxes from the Black Mesa 
Mine through 2007 were paid by the Nation to the Hopi Tribe.
    Currently, with some assistance from the Office of Navajo and Hopi 
Indian Relocation (OHNIR) the Hopi Tribe and the Navajo Nation are near 
resolving the final aspects of relocation without any Navajo evictions 
from the Hopi Partitioned Land (HPL). One of the more significant 
issues presented by S. 1003 in relation to this potential for forced 
evictions is one of timing. Currently, S. 1003 requires OHNIR to 
certify eligibility of all outstanding claims by September 30, 2005. I 
understand that this date will be revised to September 30, 2008, such a 
change should avoid the need for any forced relocation of Navajos 
because the contemplated agreement can be implemented. Ideally, if more 
time is needed to complete these efforts with the specter of eviction 
that time should be afforded. This is especially true where interested 
parties are working together to complete difficult tasks.
    Another major concern of S. 1003 relates to the Navajo Nation's 
need and ability to address the impacts of both the 1966 Bennett 
Freeze, and the 1980 Statutory Freeze in the western portion of the 
Navajo Nation. Between the administrative and statutory prohibitions on 
development the Nation is faced with approximately 1.5 million acres of 
its reservation that have had no meaningful development since before 
1966. In 1997, The Navajo Nation and the Hopi Tribe entered into a 
stipulation in the District Court that limited the development ban to 
approximately 700,000 acres that are currently subject to pending 
litigation. Upon resolution of the 1934 Act Reservation Case presumably 
the ban on development will cease, but these lands and its 
approximately 5,000 residents will require special attention to bring 
them up to the standards of other parts of the Navajo Nation. It is my 
understanding that the committee has chosen to address the Bennett and 
Statutory Freeze issues in subsequent legislation and not in S. 1003. I 
therefore raise these issues to reinforce their importance to the 
Navajo Nation.
    S. 1003 raises other areas of specific concern including:
    First, rehabilitation efforts should be focused on the Navajo 
Partitioned Land (NPL). The NPL Navajo communities have borne much of 
the cost of the relocation, having absorbed thousands of relocatees and 
their livestock in an area that has long been at, or over, capacity. 
The NPL's extremely limited infrastructure, already overtaxed by the 
influx of relocatees, was further constrained by the construction 
freeze that was in place from 1963 until approximately 1979. This 
infrastructure continues to be grossly insufficient to meet the current 
needs resulting from the relocation law.
    Second, the relocation law currently authorizes the Commissioner to 
make grants ``which significantly assist the Commissioner or assist the 
Navajo Tribe or Hopi Tribe in meeting the burdens'' of the law (25 
U.S.C. 640d-25). S. 1003 would strike this provision (Section 122), but 
this is the very provision that provides ONHIR the flexibility to 
address the needs of families and communities as they arise. Pursuant 
to this provision, the Navajo Nation has proposed various projects such 
as a community center for the Navajo families that have signed 
Accommodation Agreements with the Hopi Tribe, range and road 
improvement, power line extensions, and some housing improvement for 
heavily impacted NPL host families. Although OHNIR has not yet approved 
any of these proposals, they are exactly the kind of projects that 
bring humanity to the relocation process while addressing the real 
needs that resulting from the process. Notably, the draft substitute 
bill that the committee staff have released would restore the 
discretionary fund authorized by this section, but would not retain the 
directing guidance that the funds are to be used to ``assist the Navajo 
Tribe or Hopi Tribe in meeting the burdens'' of the law. The 
legislation should preserve this guidance.
    Third, the Navajo land selections in New Mexico should not be 
prejudiced. Section 107(c) of S. 1003 provides that the authority of 
the Commissioner to select lands in New Mexico shall terminate on 
September 30, 2008. Since the Commissioner's authority would terminate 
on that date, it is not clear that this authority would continue in the 
new Office of Relocation at the Department of the Interior. The Navajo 
Nation has not yet completed its New Mexico land selections due largely 
to circumstances beyond its control. Completion of some of those 
selections is the subject of legislation introduced in this Congress, 
specifically S. 692, the Bisti/PRLA Dispute Resolution Act. The Navajo 
Nation is concerned that this provision in S. 1003 could impact that 
selection process and potentially prejudice Navajo interests. This 
authority should be carried over in to the Department of the Interior 
if the selections are not completed by September 30, 2008.
    Fourth, the transfer of ONHIR's Responsibilities to the Department 
of the Interior. ONHIR has developed critical and hard-won experience 
in working on and near the Navajo Nation and is ideally suited to 
addressing the rehabilitation of the Bennett and Statutory Freeze 
areas. Based on this institutional knowledge ONHIR should not be 
eliminated, although it certainly can be downsized. However, whether 
ONHIR is maintained, or its responsibilities are transferred to a new 
Office of Relocation in the Department of the Interior, it is 
critically important to the Navajo Nation that the issues set forth 
above are adequately and fully addressed. Only by completing all the 
necessary tasks can this chapter be closed without future 
repercussions.
    I strongly believe that all Navajos want to put the Land Dispute 
with the Hopis behind and move forward. In order for the Nation to do 
that, the final tasks that will complete Relocation in a just and 
humane fashion must be accomplished. One alternative approach that the 
committee may want to consider rather than S. 1003 as presently 
crafted, would be to evaluate and enumerate all the tasks that ONHIR 
needs to perform to finish its tasks, with input from the Navajo Nation 
and the Hopi Tribe, then set out a reasonable timeframe to accomplish 
those tasks. That timeframe could be used as a period that begins after 
passage of the legislation to complete the tasks identified. Such an 
approach may not have worked prior to 1996, but in the present 
collaborative era the Nation, ONHIR, and the Hopi Tribe can devise a 
plan to take these final steps. The Navajo Nation wants this dispute 
behind us, but we do not want to leave individuals behind.
    In addition to my comments, the Navajo Nation attorney general has 
prepared comments on certain specific legal issues presented by S. 
1003. Those matters are also of special concern because of their impact 
on cases currently pending in the Courts or the impact these provisions 
may have on individuals seeking relocation benefits. Roman Bitsuie, the 
executive director of the Navajo-Hopi Land Commission Office, will 
discuss the efforts of the Office to serve the relocatees.

[GRAPHIC] [TIFF OMITTED] T2642.001

[GRAPHIC] [TIFF OMITTED] T2642.002

[GRAPHIC] [TIFF OMITTED] T2642.003

[GRAPHIC] [TIFF OMITTED] T2642.004

[GRAPHIC] [TIFF OMITTED] T2642.005

[GRAPHIC] [TIFF OMITTED] T2642.006

[GRAPHIC] [TIFF OMITTED] T2642.007

[GRAPHIC] [TIFF OMITTED] T2642.008

[GRAPHIC] [TIFF OMITTED] T2642.009

[GRAPHIC] [TIFF OMITTED] T2642.010

[GRAPHIC] [TIFF OMITTED] T2642.011

[GRAPHIC] [TIFF OMITTED] T2642.012

[GRAPHIC] [TIFF OMITTED] T2642.013

[GRAPHIC] [TIFF OMITTED] T2642.014

[GRAPHIC] [TIFF OMITTED] T2642.015

[GRAPHIC] [TIFF OMITTED] T2642.016

[GRAPHIC] [TIFF OMITTED] T2642.017

[GRAPHIC] [TIFF OMITTED] T2642.018

[GRAPHIC] [TIFF OMITTED] T2642.019

[GRAPHIC] [TIFF OMITTED] T2642.020

[GRAPHIC] [TIFF OMITTED] T2642.021

[GRAPHIC] [TIFF OMITTED] T2642.022

[GRAPHIC] [TIFF OMITTED] T2642.023

[GRAPHIC] [TIFF OMITTED] T2642.024

[GRAPHIC] [TIFF OMITTED] T2642.025

[GRAPHIC] [TIFF OMITTED] T2642.026

[GRAPHIC] [TIFF OMITTED] T2642.027

[GRAPHIC] [TIFF OMITTED] T2642.028

[GRAPHIC] [TIFF OMITTED] T2642.029

[GRAPHIC] [TIFF OMITTED] T2642.030

[GRAPHIC] [TIFF OMITTED] T2642.031

[GRAPHIC] [TIFF OMITTED] T2642.032

[GRAPHIC] [TIFF OMITTED] T2642.033

[GRAPHIC] [TIFF OMITTED] T2642.034

[GRAPHIC] [TIFF OMITTED] T2642.035

[GRAPHIC] [TIFF OMITTED] T2642.036

[GRAPHIC] [TIFF OMITTED] T2642.037

[GRAPHIC] [TIFF OMITTED] T2642.038

[GRAPHIC] [TIFF OMITTED] T2642.039

[GRAPHIC] [TIFF OMITTED] T2642.040

[GRAPHIC] [TIFF OMITTED] T2642.041

[GRAPHIC] [TIFF OMITTED] T2642.042

[GRAPHIC] [TIFF OMITTED] T2642.043

[GRAPHIC] [TIFF OMITTED] T2642.044

[GRAPHIC] [TIFF OMITTED] T2642.045

[GRAPHIC] [TIFF OMITTED] T2642.046

[GRAPHIC] [TIFF OMITTED] T2642.047

[GRAPHIC] [TIFF OMITTED] T2642.048

[GRAPHIC] [TIFF OMITTED] T2642.049

[GRAPHIC] [TIFF OMITTED] T2642.050

[GRAPHIC] [TIFF OMITTED] T2642.051

[GRAPHIC] [TIFF OMITTED] T2642.052

[GRAPHIC] [TIFF OMITTED] T2642.053

[GRAPHIC] [TIFF OMITTED] T2642.054

[GRAPHIC] [TIFF OMITTED] T2642.055

[GRAPHIC] [TIFF OMITTED] T2642.056

[GRAPHIC] [TIFF OMITTED] T2642.057

[GRAPHIC] [TIFF OMITTED] T2642.058

[GRAPHIC] [TIFF OMITTED] T2642.059

[GRAPHIC] [TIFF OMITTED] T2642.060

[GRAPHIC] [TIFF OMITTED] T2642.061

[GRAPHIC] [TIFF OMITTED] T2642.062

[GRAPHIC] [TIFF OMITTED] T2642.063

[GRAPHIC] [TIFF OMITTED] T2642.064

[GRAPHIC] [TIFF OMITTED] T2642.065

[GRAPHIC] [TIFF OMITTED] T2642.066

[GRAPHIC] [TIFF OMITTED] T2642.067

[GRAPHIC] [TIFF OMITTED] T2642.068

[GRAPHIC] [TIFF OMITTED] T2642.069

[GRAPHIC] [TIFF OMITTED] T2642.070

[GRAPHIC] [TIFF OMITTED] T2642.071

[GRAPHIC] [TIFF OMITTED] T2642.072

[GRAPHIC] [TIFF OMITTED] T2642.073

[GRAPHIC] [TIFF OMITTED] T2642.074

[GRAPHIC] [TIFF OMITTED] T2642.075

[GRAPHIC] [TIFF OMITTED] T2642.076

[GRAPHIC] [TIFF OMITTED] T2642.077

[GRAPHIC] [TIFF OMITTED] T2642.078

[GRAPHIC] [TIFF OMITTED] T2642.079

[GRAPHIC] [TIFF OMITTED] T2642.080

[GRAPHIC] [TIFF OMITTED] T2642.081

[GRAPHIC] [TIFF OMITTED] T2642.082

[GRAPHIC] [TIFF OMITTED] T2642.083

[GRAPHIC] [TIFF OMITTED] T2642.084

[GRAPHIC] [TIFF OMITTED] T2642.085

[GRAPHIC] [TIFF OMITTED] T2642.086

[GRAPHIC] [TIFF OMITTED] T2642.087

[GRAPHIC] [TIFF OMITTED] T2642.088

[GRAPHIC] [TIFF OMITTED] T2642.089

[GRAPHIC] [TIFF OMITTED] T2642.090

                                 <all>

</pre></body></html>
